No. 19-511

 

In the Supreme Court of the Anited States

FACEBOOK, INC.,

Petitioner,

v.

Noau DuGUIDD, individually and on behalf of himself
and all others similarly situated,

Respondent,

and

UNITED STATES OF AMERICA,

Respondent-Intervenor.

 

CERTIFICATE OF COMPLIANCE

 

I hereby certify that I am a member in good standing of the bar of this Court
and that the Brief of Amicus Curiae Credit Union National Association, Inc. in
Support of Petitioner contains 7,881 words and complies with the word limitation
established by Rule 33.1(g)(xii) of the Rules of this Court.

Dated: September 11, 2020

 
